              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Calutron Isotope Production
Capabilities




DOE/IG-0574                                 November 2002
                                 U. S. DEPARTMENT OF ENERGY
                                       Washington, DC 20585

                                          November 14, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                  INFORMATION: Audit Report on the "Calutron Isotope Production Capabilities"

BACKGROUND

In August 2002, the Department of Energy (Department) formalized its plan to permanently disable the only
domestic facility capable of producing electromagnetically enriched stable isotopes. The Department
intended to dismantle the equipment in the facility, called calutrons, and rely on existing isotope inventories,
isotopes produced by Russia, or the adaptation of other isotope separation technologies to meet the domestic
demand for stable isotopes. This plan was based on the premise that the calutrons were excess to mission
needs and not economical.

The calutrons were initially built to enrich uranium and are capable of enriching most isotopes from the
periodic table of elements. Although other enrichment techniques were adopted for uranium, the Department
and its predecessor organizations continued to operate the calutrons to ensure the availability of other
enriched stable isotopes.

Electromagnetically enriched stable isotopes have many important industrial, medical, and research uses.
One isotope, for example, will be used for homeland security in explosives detection devices throughout the
country. Another is currently used by both the defense and commercial sectors in global positioning systems
for navigation and tracking. In addition, many stable isotopes are used to create the radioisotopes used in a
wide variety of medical applications, such as cancer treatments, tumor imaging, and heart scans.

This audit was conducted to determine if the Department would be able to ensure the availability of stable
isotopes if it eliminated its domestic isotope production capability.


RESULTS OF AUDIT

We concluded that the Department may not be able to ensure the availability of a full range of stable isotopes
if the calutrons were dismantled. Despite the assertions by management that the calutrons were no longer
needed because alternative sources were available, the audit disclosed that:
                                               −2−


       •   Current inventories of some stable isotopes are insufficient to cover future
           needs; and,

       •   No proven domestic alternative capabilities are currently available to replace
           the calutrons.

Furthermore, the Department's strategy included reliance on isotopes supplied by Russia.
We concluded that this strategy carries with it a number of risks, which need to be
carefully considered in the decision-making process. In particular, the Department's past
purchasing experience has raised concerns about both the supply and quality of the
Russian-produced material. Management disagreed with this position, claiming that the
Russian supply chain was sound.

To address the overall concerns, we recommended that dismantlement of the equipment
be suspended until a reliable and fully demonstrated alternative source of stable isotopes
is obtained. This course of action recognizes the continuing need for stable isotopes and
that alternatives, at this time, may be both impractical and, ultimately, more expensive.
In fact, replacing the calutrons could cost as much as $45 million, depending on the
capacity needed; whereas, maintaining the existing equipment in a standby mode will
only cost about $1.5 million annually.

MANAGEMENT REACTION

During the course of the audit, management re-evaluated its decision. Specifically,
management agreed to maintain the calutrons in an operable condition until they are no
longer needed. However, management stressed that there currently was no meaningful
shortage of isotopes in the United States' inventory. In addition, as noted previously,
management stated that the Russian supply of isotopes was reliable and that the world
stable isotope supply was robust and competitive. Further, management indicated that it
planned to continue pursuing the purchase of a small number of electromagnetic
separators to pair with other technologies to address the possible future need for small
quantities of specialized research isotopes. Finally, although management did not have a
formal cost estimate, it believed that it would most likely cost between $8 and $18
million to carry out its plans. However, management admitted that the cost could
increase depending on the capacity needed.

We found management's actions to be responsive to our recommendations. We agree
that maintaining or replacing the entire currently available production capacity may not
be necessary. However, given the importance of having a readily available supply of
stable isotopes, we believe it essential to maintain domestic capability to produce a wide
variety of such isotopes. In this regard, although management expressed its hope to
obtain a small number of electromagnetic separators as well as utilize other technologies
to meet future isotope needs, neither funding nor acquisition plans are currently in place
to achieve this goal. Therefore, in our judgment, maintaining the existing calutrons in
standby mode seems to be the best course of action.
                                                  -3-


Attachment

cc:;   Chief of Staff
       Under Secretary for Energy, Science, and Environment
       Director, Office of Nuclear Energy, Science and Technology
       Manager, Oak Ridge Operations Office
CALUTRON ISOTOPE PRODUCTION CAPABILITIES

TABLE OF
CONTENTS



               Overview

               Introduction and Objective .......................................................... 1

               Conclusions and Observations .................................................. 1


               Ensuring Availability of Stable Isotopes

               Details of Finding ........................................................................ 3

               Recommendations and Comments ............................................ 5


               Appendices

               Scope and Methodology ............................................................. 7

               Management Comments ............................................................ 8
CALUTRON ISOTOPE PRODUCTION CAPABILITIES

INTRODUCTION AND    The Department of Energy (Department) planned to permanently
OBJECTIVE           eliminate the domestic capability to produce electromagnetically
                    enriched stable isotopes. The Department intended to dismantle the
                    machinery used to produce the isotopes, called calutrons, and rely on
                    existing Department inventories, Russian-produced isotopes, or the
                    adaptation of other isotope separation technologies to meet the domestic
                    demand for stable isotopes.

                    The calutrons were initially built to enrich uranium and are capable of
                    enriching most isotopes from the periodic table of elements. There are
                    currently 38 individual calutron units located at the Y-12 National
                    Security Complex (Y-12) in Oak Ridge, Tennessee. Although other
                    enrichment techniques were adopted for uranium, the Department and
                    its predecessor organizations continued to operate the calutrons to
                    ensure the availability of enriched stable isotopes to support industrial,
                    medical, and research applications. Evolving from its initial role as the
                    principal domestic supplier of stable isotopes, the Department has
                    modified its mission to focus on ensuring a supply of stable isotopes to
                    support domestic isotope research.

                    The calutron facility was designated as a Manhattan Project Signature
                    Facility under the National Historic Preservation Act. As such, the
                    Department is required to consult with both the President's Advisory
                    Council on Historic Preservation and the Tennessee State Historic
                    Preservation Officer prior to any activity, such as dismantling, that
                    might affect the historic characteristics of the calutron facility. The
                    Department has received approval to proceed with certain dismantling
                    activities, some of which will permanently disable the calutrons' ability
                    to separate isotopes. However, the Department has not sought or
                    received approval for all of the actions required to excess the calutron
                    facility as planned.

                    Because electromagnetically enriched stable isotopes have wide
                    applicability, we conducted the audit to determine if the Department
                    would be able to ensure the availability of stable isotopes if it
                    eliminated its domestic isotope production capability.


CONCLUSIONS AND     The availability of some stable isotopes could not be assured if the
OBSERVATIONS        calutron machines were disabled. We determined that the current
                    inventories of some isotopes are insufficient to cover future demand,
                    the future supply of Russian-produced isotopes may be unreliable, and
                    no proven alternative technologies to replace the calutrons are
                    available. If the Department proceeded with its plan to dismantle the

Page 1                                                        Introduction and Objective/
                                                            Conclusions and Obsevations
         calutrons, the United States would lose the capability to produce 110
         stable isotopes and become dependent on Russia to provide essential
         isotopes to meet our domestic research needs. In addition, it would
         incur $5.5 million to dismantle the current calutrons as well as up to
         $45 million to obtain replacement calutrons should the need arise.

         This audit identified issues that management should consider when
         preparing its year-end assurance memorandum on internal controls.




                                              (Signed)
                                       Office of Inspector General




Page 2                                          Conclusions and Observations
Ensuring Availability of Stable Isotopes

Alternatives to Domestic   The Department has depleted its inventory of several isotopes and,
Production of Isotopes     during Fiscal Year (FY) 2002, it was unable to fulfill all customer
                           requests for isotopes. For example, the isotope mercury-202, which is
                           used in environmental research, was unavailable. Requests for
                           lutetium-176, used for cancer research, were also denied. The
                           Department was also unable to fulfill requests for tungsten-186, used
                           for cancer and coronary treatments. Further, less than a three-year
                           supply is projected to exist for several other high demand isotopes, such
                           as rubidium-87, which is used by Department of Defense and the
                           commercial sector in global positioning systems, as well as nickel-62,
                           which is the basis for an isotope used in explosive detection devices.

                           In addition, the future supply of Russian-produced isotopes may be
                           unreliable. In particular, the Department's past purchasing experience
                           with Russian-produced isotopes has raised concerns about both the
                           supply and the quality of the material. To illustrate, a Department
                           procurement action in February 1999 for the purchase of the stable
                           isotope rubidium-87 resulted in 14 documented instances of non-
                           compliance with procurement requirements. These issues ranged from
                           failure of administrative controls to the material not meeting required
                           specifications. For instance, the supplier failed to label the shipments
                           as radioactive material, all the shipments were received significantly
                           later than the contractual delivery dates, and the material contained
                           excessive impurity levels. In fact, some of the material contained
                           impurities 24 times greater than the amount present in the test samples
                           provided by the supplier as "representative" of the material to be
                           supplied. A second procurement action in May 2000 for the same
                           isotope was initially rejected in its entirety and then accepted after
                           further processing, although seven non-compliance issues similar to
                           those encountered with the first procurement action still existed.

                           Currently, no proven alternative technologies are available to replace
                           the capability of the calutrons. In FY 1999, the Department tasked an
                           independent contractor to identify a technology in which the
                           Department might invest to replace the calutrons for the production of
                           research isotopes. The overwhelming consensus of the isotope
                           separation experts who conducted the study was that the only
                           technology capable of providing the full spectrum of enriched stable
                           isotopes was electromagnetic separation. The calutrons are currently
                           the only domestic production facility that can perform electromagnetic
                           separation. They also concluded that no combination of technologies
                           could be relied upon in the next several years to provide the same or
                           similar capability as the calutrons, even with a substantial research
                           investment. We noted that the Department has continued to pursue
                           alternative technologies for specific stable isotopes. For example, in

Page 3                                                                          Details of Finding
                            FY 2000, the Department funded a study to demonstrate the feasibility
                            of producing rubidium-87 using plasma separation. However, while the
                            feasibility has been demonstrated, the production of useful quantities of
                            rubidium-87 has not been accomplished. In addition, the Department
                            concluded that plasma separation would be most effective when
                            coupled with a calutron.

Decision to Eliminate       The Department determined that the calutrons were excess to current or
Stable Isotope Production   future programmatic needs based on its conclusion that the large fixed
Capability                  costs for the calutron facility outweigh the benefits to the program now
                            and for the foreseeable future. Historically, revenue generated from
                            isotope sales was used to support the development and production of
                            research isotopes. The Department has encouraged private sector
                            investment in the production of commercially viable isotopes, where
                            possible, which has resulted in reduced revenues to support its research
                            mission. Therefore, the Department concluded that the continued
                            operation or standby of the calutrons under its anticipated cost structure
                            would not be economical. However, estimates prepared by three
                            separate groups show almost no reduction in costs even after the
                            Department dismantles the calutrons. Further, the Oak Ridge
                            Operations Office prepared an analysis of calutron operations that
                            concluded that the Department would actually save money through the
                            limited production of stable isotopes to offset the fixed cost of the
                            facility.

                            The Department anticipates the need to replace a small number of the
                            calutrons to support research mission needs. The Department's isotope
                            program Five-Year Plan identified funding requirements for
                            replacement calutrons in FYs 2004 through 2007; however, funding has
                            not been requested. An official from the isotope program indicated
                            that, if supply problems arise, the Department could replace the
                            calutrons within a year of receiving funding. However, we noted that
                            the year time frame appeared to be unrealistic considering the time
                            required to resolve technical design issues, build or modify a
                            replacement facility, and contract for the fabrication and installation of
                            the replacement calutrons. Also, the Department has not developed an
                            implementation plan for replacing the calutrons or conducted a
                            comprehensive analysis to show the benefits associated with
                            permanently disabling the calutrons prior to the acquisition of
                            replacements.

Isotopes May Be             If the Department proceeded with its plan, the United States would lose
Unavailable                 the capability to produce 110 stable isotopes and become dependent on
                            Russia to provide essential isotopes to meet our domestic needs. In
                            addition, an expert panel report, Forecast Future Demand for Medical

Page 4                                                                            Details of Finding
                  Isotopes, noted that without a reliable isotope production facility, the
                  practice of nuclear medicine would suffer, as would the patients who
                  require these services. Currently, clinical trials, which are the core of
                  promising new therapies, often need isotopes that are not readily
                  available in the commercial sector. Accordingly, if the Department
                  does not maintain the stable isotope production capabilities, it could
                  lead to the abandonment of research, or at least significant delays in
                  clinical trials.

                  In addition, the cost to obtain replacement calutrons would outweigh
                  the cost of maintaining the current machines. Specifically, if the
                  Department dismantled the calutrons and then had to replace their
                  capacity, the Department would incur $5.5 million in avoidable
                  dismantling costs and between $3.5 million and $45.1 million in
                  avoidable replacement costs, depending on number of calutrons
                  replaced. These costs are only for the purchase of the machines and do
                  not include the installation or construction costs which would be
                  incurred to build a new or modify an existing facility to house the
                  replacement calutrons if the current facility is decommissioned as
                  planned. The current cost to maintain the calutrons in a standby mode
                  is only $1.5 million annually. The surveillance and maintenance costs
                  that would have to be paid until the calutron facility is demolished are
                  about the same as maintaining the calutrons in standby mode with their
                  capability intact. Also, at the incremental cost of a few hundred
                  thousand dollars, the calutrons can be operated from the standby mode
                  for short campaigns to produce stable isotopes that are in critically
                  short supply. In at least some instances, the revenues from those
                  isotopes would exceed the cost of production, thereby reducing the net
                  cost to the Department for maintaining this capability. Finally, if one
                  segment of the calutrons was placed into an operating mode, the total
                  cost would only be about $5.2 million annually and some of that cost
                  could be offset by sales revenue. We could not determine the
                  breakeven point for replacing the calutrons because the Department
                  has not identified the estimated operating costs for replacement
                  calutrons.


RECOMMENDATIONS   We recommend that the Director of the Office of Nuclear Energy,
                  Science and Technology:

                     1. Conduct a comprehensive study to identify the cost and
                        operating benefits of disabling the calutrons versus continuing
                        to maintain their current condition until such time as
                        replacements can be obtained.

Page 5                                             Recommendations and Comments
                         2. Continue to maintain the calutron isotope production capability
                            until a more viable alternative has demonstrated the ability to
                            produce a wide variety of isotopes similar to that provided by
                            the calutrons.


MANAGEMENT REACTION   Management concurred with the recommendations and, based on the
                      results of the recommended cost analysis, agreed to maintain the
                      calutrons in an operable condition until they are no longer needed.
                      However, management did not believe that the entire production
                      capacity associated with the current calutrons would be needed.
                      Management also stated that, based on its own four-year inventory
                      analysis, there was no meaningful shortage of United States inventory.
                      In addition, management stated that the Russian supply of isotopes was
                      reliable and that the world stable isotope supply was robust and
                      competitive. Finally, management planned to continue pursuing the
                      purchase of a small number of replacement calutrons to pair with other
                      technologies to address the possible future need for small quantities of
                      specialized research isotopes. Management anticipated that it would
                      cost between $8 and $18 million to carry out its plans.

                      Management's response to the recommendations is included as
                      Appendix 2.


AUDITOR COMMENTS      We consider management's actions to be responsive to our
                      recommendations. In addition, we agree that maintaining or replacing
                      the entire production capacity currently available may not be necessary.
                      The intent of the second recommendation was to ensure that the
                      capability to produce a wide variety of isotopes was maintained, but not
                      necessarily at the current capacity. Therefore, we revised the second
                      recommendation to clarify this point. In addition, the audit focused on
                      the Department's ability to meet domestic isotope needs in the future,
                      rather than current needs. Based on the results of our audit, we are
                      concerned that the Russian supply of isotopes may not be reliable in the
                      future and that the world market for stable isotopes may not continue to
                      be competitive if the calutrons are dismantled and Russia becomes the
                      sole producer. Finally, although management hopes to obtain
                      replacement calutrons as well as utilize other technologies to meet
                      future isotope needs, it currently has neither the funding nor the
                      implementation plans in place to do so.




Page 6                                                 Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from June 24, 2002, to August 22, 2002, at the
              Office of Isotopes for Medicine and Science, in Germantown,
              Maryland, and the Oak Ridge Reservation, in Oak Ridge, Tennessee.
              The audit included a review of the Department's decision to dismantle
              the calutrons and its strategy for supplying stable isotopes.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Reviewed the various uses for stable isotopes;

                 •   Reviewed the Department's dismantling plans for the calutrons;

                 •   Evaluated alternative sources for the supply of stable isotopes;

                 •   Reviewed various reports on the Department's isotope program;
                     and,

                 •   Evaluated the cost of replacing the calutrons.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              audit included a review of the Department's stable isotope production
              activities. Because our audit was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. As part of our review, we also evaluated the
              Department's implementation of the Government Performance and
              Results Act of 1993. We found that the Department had implemented
              specific and measurable performance measures related to supplying
              stable isotopes to its customers. We did not rely on computer-
              processed data to achieve our audit objective.

              We held an exit conference with the Deputy Director for Operations
              and Management/Chief Operating Officer in the Department's Office of
              Nuclear Energy, Science, and Technology, on October 28, 2002.




Page 7                                                     Scope and Methodology
Appendix 2




Page 8       Management Comments
                                                                              IG Report No.: DOE/IG-0574

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
